No. 21IN THE
SUPREME COURT OF THE UNITED STATES
SYLVIA DIAZ,
Petitioner
v.
UNITED STATES OF AMERICA,
Respondent
On Petition for a Writ of Certiorari
To The United States Court of Appeals
For the Fifth Circuit

CERTIFICATE OF SERVICE
I hereby certify that I mailed a true and correct copy of Petitioner Sylvia
Diaz’s Motion for Leave to Proceed In Forma Pauperis and Petition for a Writ of
Certiorari via the United States Postal Service, first-class postage pre-paid, to the
following counsel for the Respondent:
The Honorable Elizabeth B. Prelogar
Acting Solicitor General of the United States
Room 5614
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, DC, 20530-0001.
l

August 18, 2021
Robej

R<
State Bar No. 04325300
405 Windward Dr.
Murphy, Texas 75248
Phone: (972) 757-5690
Fax: (972) 692-8212

2

